February 18, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Mail Entry Unit Oversight Reviews – Omaha Business
         Mail Entry Unit, Omaha, NE (Report Number FF-MA-11-022)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s Business Mail Entry Unit (BMEU) testing at the
Omaha BMEU, Omaha, NE (Project Number 11BR004FF011), performed December
15-16, 2010. The Omaha BMEU is in the Central Plains District of the Western Area. At
the conclusion of FY 2011, we will summarize the results for all interim reviews in a
report to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from December 2010 through
February 2011 in accordance with the Council of the Inspectors General on Integrity
and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our
observations and conclusions with management on February 2, 2011, and included
their comments where appropriate.
Fiscal Year 2011 Financial Testing Compliance                         FF-MA-11-022
 Business Mail Entry Unit Oversight Reviews – Omaha BMEU, Omaha, NE


Conclusion

Based on our review of FTC’s work, FTC analysts properly conducted and documented
their examination of key SOX financial reporting controls. See Appendix A for the results
of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters management. Management agreed not to respond to the interim
reports but will have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Cathy J. Jenson, audit
manager, at (972) 892-4456, or me at (510) 285-9024.

 -Signed by Linda J. Libician-Welc
VERIFY authenticity with ApproveI



Linda Libician-Welch
Director, Field Financial – West

Attachments

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                  2
                                       Restricted Information
Fiscal Year 2011 Financial Testing Compliance                                       FF-MA-11-022
Business Mail Entry Unit Oversight Reviews Omaha BMEU, Omaha, NE



                                               APPENDIX A: REVIEW RESULTS

      Site Name                                              Omaha BMEU
      Unit 10-Digit Cost Center Code                         3066450567
      Location Type                                          BMEU
      Scope Period Under Review                              10/1/2010 – 12/14/2010
      FTC Review Program Version and Date                    FY 2011-v1, November 24, 2010
      FTC Team                                               West


                                                                                                  Did FTC
                                                                                    Did FTC      adequately
                                                                 Did the OIG      perform the   document its
                                                                    have             step in        work
                                                Did FTC have     exceptions       accordance     performed     Did the OIG agree
                                                  exceptions      that FTC            to its       and the      with FTC’s site
FTC Review              FTC Review Step          in this step?    did not?         program?       results?          results?*
Step #/Control #            Description            (Yes/No)       (Yes/No)          (Yes/No)      (Yes/No)          (Yes/No)
450001/104CA163     Mail Check-In/Receipt             No              No               Yes           Yes               Yes
450002/104CA2       Mail Verification                 No              No               Yes           Yes               Yes
450003/104CA65      Placarding/Induction              No              No               Yes           Yes               Yes
                    End-of-Day
450004/104CA66                                        No              No            Yes             Yes              Yes
                    Reconciliation
                    Finalizing Postage
450006/104CA1                                        Yes              No            Yes             Yes              Yes
                    Statements
*Based on our review of FTC’s documentation posted to the Blue Share on January 10, 2011.




                                                                    3
                                                         Restricted Information
